<html>
<title> - PARIS CLIMATE PROMISE: A BAD DEAL FOR AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                         PARIS CLIMATE PROMISE:
                         A BAD DEAL FOR AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            February 2, 2016

                               __________

                           Serial No. 114-57

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov
       
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-827 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEPHEN KNIGHT, California           MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DRAIN LAHOOD, Illinois




















                            C O N T E N T S

                            February 2, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     5
    Written Statement............................................     7

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     9
    Written Statement............................................    11

                               Witnesses:

Mr. Steve Eule, Vice President for Climate and Technology, U.S. 
  Chamber of Commerce
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. John Christy, Professor of Atmospheric Science and Director 
  of the Earth System Science Center, University of Alabama in 
  Huntsville
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. Andrew Steer, President and CEO, World Resources Institute
    Oral Statement...............................................    71
    Written Statement............................................    73

Mr. Steven Groves, The Bernard and Barbara Lomas Senior Research 
  Fellow, Margaret Thatcher Center for Freedom, The Heritage 
  Foundation
    Oral Statement...............................................   109
    Written Statement............................................   111
Discussion.......................................................   120

             Appendix I: Answers to Post-Hearing Questions

Mr. Steve Eule, Vice President for Climate and Technology, U.S. 
  Chamber of Commerce............................................   144

Dr. Andrew Steer, President and CEO, World Resources Institute...   147

            Appendix II: Additional Material for the Record

Statement submitted by Representative Donald S. Beyer, Jr., 
  Ranking Minority Member, Subcommittee on Oversight, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   156

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   162

Article submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   196

Letter submitted by Representative Frank D. Lucas, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   197

 
                         PARIS CLIMATE PROMISE:
                         A BAD DEAL FOR AMERICA

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2016

                  House of Representatives,
  Subcommittee on Research and Technology &
                         Subcommittee on Oversight,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:09 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time. 
Welcome to today's hearing, entitled ``Paris Climate Promise: A 
Bad Deal For America.'' I'll recognize myself for an opening 
statement, and then the Ranking Member.
    President Obama submitted costly new electricity 
regulations as the cornerstone of his agreement at the Paris 
U.N. Climate Conference last December. These severe measures 
will adversely affect our economy, and have no significant 
impact on global temperatures. In Paris, the President pledged 
that the United States will cut its greenhouse gas emissions by 
as much as 28 percent over the next decade, and by 80 percent 
or more by 2050. Moreover, the President's pledge creates an 
international agreement that binds the United States for 
decades to come, but lacks constitutional legitimacy, since it 
has not been ratified by the Senate.
    The agreement not only requires the U.S. to reduce carbon 
emissions, but also compels our country to pay billions of 
dollars to developing nations to reduce their carbon emissions. 
Furthermore, even if all 196 countries continue their promised 
reductions for each year after 2031, until 2100, it will only 
reduce temperatures by one-sixth of a degree Celsius. The so-
called Clean Power Plan will cost billions of dollars, cause 
financial hardship for American families, and diminish the 
competitiveness of American employers, all with no significant 
benefit to climate change. The U.S. pledge to the U.N. is 
estimated to prevent only one-fiftieth of 1 degree Celsius 
temperature rise over the next 85 years. EPA's own data shows 
that this regulation would reduce sea level rise by only one 
one-hundreth of an inch, the thickness of three sheets of 
paper.
    The President's power plan is nothing more than a power 
grab. A majority of Congress disapproved of the Clean Power 
Plan through the Congressional Review Act, and the governors of 
most states are challenging the rule in court. Meanwhile, the 
President attempts to justify his actions with scare tactics, 
worst case scenarios, and biased data. An example of how this 
administration promotes its suspect climate agenda can be seen 
at the National Oceanographic and Atmospheric Administration. 
Its employees altered historical climate data to get 
politically correct results in an attempt to disprove the 18 
year lack of global temperature increases. NOAA conveniently 
issued its news release that promotes this report just as the 
administration announced its extensive climate change 
regulations. NOAA has refused to explain its findings and 
provide documents to this Committee, and the American people. 
The people have a right to see the data, evaluate it, and know 
the motivations behind this study. Last week, over 300 
respected scientists and experts, which include a Nobel Prize 
winner, members of the National Academy of Sciences, and former 
astronauts, sent this Committee a letter that expressed concern 
over NOAA's efforts to alter historical temperature data. They 
agree that the issue deserves serious scrutiny.
    This administration continually impedes Congressional 
oversight of its extreme climate agenda. Rightfully, Americans 
should be suspicious. Furthermore, statements by President 
Obama and others that attempt to link extreme weather events to 
climate change are unfounded. The lack of evidence is clear. No 
increased tornadoes, no increased hurricanes, no increased 
droughts or floods. For instance, the United Nations 
Intergovernmental Panel on Climate Change found that there is 
``low confidence on a global scale'' that drought has increased 
in intensity or duration. The same lack of evidence can be 
found in the IPCC reports for almost every type of extreme 
weather.
    The administration's alarmism and exaggeration is not good 
science, and intentionally misleads the American people. 
Congress has repeatedly rejected the President's extreme 
climate agenda. Now the administration attempts to create the 
laws on its own, and has packaged all these regulations, and 
promised their implementation to the U.N. The President's Paris 
pledge will increase electricity cost, ration energy, and slow 
economic growth. It ignores good science, and only seeks to 
advance a partisan political agenda. The President should 
present his Paris climate change agreement to Congress. He 
won't, because he knows neither the Senate, nor the House, 
would approve it. As we will hear today, the President's U.N. 
climate pledge is a bad deal for the American economy, the 
American people, and would produce no substantive environmental 
benefits.
    [The prepared statement of Chairman Smith follows:]
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
  
  
  
 
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Eddie Bernice 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. Let me welcome our witnesses, and in particular I'd 
like to thank Dr. Steer for returning today. Your testimony in 
December, before the Paris conference, was enlightening, and 
greatly appreciated. Today I look forward to discussing your 
takeaways from Paris, as well as your thoughts on appropriate 
steps that need to be taken to address climate change.
    The Paris agreement formalized what many across the world 
already knew must be done to meaningfully address our most 
serious environmental challenge. Establishing a commitment to 
action, not for some, but for all countries, is the first step 
toward a comprehensive global strategy to reduce carbon 
emissions. This commitment demands transparency, again, not for 
some, but for all countries, to ensure that effective policies 
are put in place, and that the objective of the agreement, to 
limit the warming of our planet is accomplished.
    We can accomplish this in three ways. First we must need--
we need to support the private sector's growing recognition of 
the threats posed by climate change. In the United States 
alone, 154 companies signed on to the American Business Act on 
Climate pledge. Through this pledge, companies like AT&T, Bank 
of America, Cargill, Coca-Cola, IBM, and even the Walt Disney 
Company are demonstrating their support for action by setting 
emission targets for their operations. As many of you will 
recall, days before the Paris climate talks, Bill Gates, along 
with a group of private investors, announced the creation of 
Breakthrough Energy Coalition, a coalition committed to 
investing in potentially transformative emerge--energy systems. 
Private sector efforts like this illustrate the potential 
impacts investments in technology can have on achieving both 
long and short term carbon reductions.
    The Paris agreement requires all governments to be 
consistent with their commitments, and sends a signal to the 
private sector that a stable framework for action will be put 
in place, enabling private actors to invest, innovate, and 
inspire further action. Second, as our private sector responds 
to stable market signals, we must continue to identify 
opportunities for the Federal Government to invest in research 
and technologies that put us on a path to prevent a rise in 
global temperatures above 2 degrees Celsius. In addition to 
helping address climate change, investments in such innovative 
technologies will propel us forward into a new era of economic 
prosperity and environmental health. Third, we must capture the 
momentum of the Paris agreement, and take a leadership role in 
addressing the challenge of climate change, and not just react 
to changes as they occur. Maintaining our international 
commitments demonstrates strength, and provides certainty for 
all of our partners, including our private sector partners 
right here at home. As we act in a transparent manner to 
develop and implement policies to address our own carbon 
emissions, we will help move other nations to follow our 
example, and achieve an impactful global response to climate 
change.
    I fear that we will hear today many of the same views and 
arguments that we've heard from the majority for years. They 
will warn us of the dire economic consequences of acting on 
climate change, or suggest that thousands of the world's most 
respected scientists are wrong about climate changing at all, 
or that any actions we take will be pointless. They will 
portray the Obama Administration as overreaching. They will say 
all of these things, but the reality is that the audience for 
those views is shrinking as the reality of climate change 
become evident. The rest of us acknowledge the task ahead, and 
recognize that delay is not an option. We must move forward to 
support policies that will address our climate challenge, and 
trust that our private sector will continue to innovate. The 
Paris climate agreement is a very positive development, and I 
hope that we can all build on it.
    And, Mr. Chairman, I have a page here from the Washington 
Post dated Friday, December the 11th, 2015, that talks about 
the draft of the Paris agreement, and it also has a second 
article that's entitled, ``In Paris, Majority View in GOP 
Congress Is In A Minority''. I thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Chairman Smith. Okay. Thank you, Ms. Johnson. Our first 
witness today is Mr. Stephen Eule, Vice President for Climate 
and Technology at the U.S. Chamber of Commerce. Prior to 
joining the Chamber, Mr. Eule was the Director of the Office of 
Climate Change Policy and Technology at the Department of 
Energy, and during this time Dr. Eule represented DOE at the 
Intergovernmental Panel on Climate Change, the G-20, and other 
multilateral forums. He also previously served as a 
Subcommittee Staff Director here at the Science Committee, so 
welcome back.
    Dr. Eule received his Bachelor's Degree in Biology from 
Southern Connecticut State College, and his Master's Degree in 
Geography from George Washington University.
    I'll now recognize the gentleman from Alabama, Mr. Palmer, 
to introduce our next witness.
    Mr. Palmer. Thank you, Mr. Chairman. It is my pleasure and 
honor to introduce a fellow Alabamian. Our second witness is 
Dr. John Christy, distinguished Professor of Atmospheric 
Science, and Director of the Earth System Science Center at the 
University of Alabama in Huntsville. Dr. Christy, a data-driven 
climate scientist, has researched climate issues for 27 years, 
and has been Alabama State Climatologist since 2000. He was a 
contributor on four reports by the Intergovernmental Panel on 
Climate Change, and was lead author of a section of the 2001 
IPCC third assessment report. In addition, Dr. Christy received 
NASA's Medal for Exceptional Scientific Achievement in 1991 for 
building a global temperature database, and in 2002 was elected 
a fellow of the American Meteorological Society.
    Dr. Christy received his Bachelor's Degree in Mathematics 
from California State University, Fresno, and his Master's and 
Ph.D. in Atmospheric Sciences from the University of Illinois. 
It's our pleasure to have you here, Dr. Christy. Thank you for 
testifying.
    Chairman Smith. All right. Thank you, Mr. Palmer. Our third 
witness today is Dr. Andrew Steer, President and CEO of World 
Resources Institute. Dr. Steer joined WRI from the World Bank, 
where he served as Special Envoy for Climate Change since 2010. 
Prior to this position, Dr. Steer was Director, General, and 
Member of the management board at the United Kingdom Department 
of International Development. Dr. Steer worked at the World 
Bank for over 20 years, and has held a number of position, that 
include Director of the Environment Department. Dr. Steer 
received his Ph.D. in Economics from the University of 
Pennsylvania.
    Our final witness is Mr. Steven Groves, Senior Research 
Fellow at the Margaret Thatcher Center for Freedom at the 
Heritage Foundation. Before joining Heritage in 2007, Mr. 
Groves was Senior Counsel to the U.S. Senate Permanent 
Subcommittee on Investigations. Mr. Groves received his 
Bachelor's Degree in History from Florida State, his Master's 
Degree in Law from Georgetown, and his J.D. from Ohio Northern 
University.
    We welcome you all, look forward to your testimony. And, 
Mr. Eule, if you'll begin?

                  TESTIMONY OF MR. STEVE EULE,

           VICE PRESIDENT FOR CLIMATE AND TECHNOLOGY,

                    U.S. CHAMBER OF COMMERCE

    Mr. Eule. Thank you, Chairman, Smith, Ranking Member 
Johnson, and members of the Committee. It's a pleasure to be 
back here in the Science Committee. The main points I'd like to 
make, which are detailed in my written testimony, are as 
follows. First, the Paris agreement clearly fulfills the Durban 
Platform's goal of an outcome with legal force, as it contains 
many legally binding provisions laying out what parties 
``shall'' do. These include requiring the parties to make 
future increasingly ambitious mitigation pledges, and to 
provide financing and technology assistance. The binding 
aspects of the Paris agreement clearly require implementing 
legislation and regulation potentially affecting every sector 
of the U.S. economy. An agreement with such far reaching 
consequences, if it is to be considered durable and binding 
both politically and legally, should approved by Congress.
    Second, according to its own analysis, the Obama 
Administration's emission reduction commitment for Paris 
doesn't add up. In a report released New Year's Eve, the 
administration estimates that 41 percent to 57 percent of the 
President's 2025 emissions target remains unaccounted for, and 
that's assuming EPA's Clean Power Plan survives court scrutiny, 
a big if. Even when including the administration's wish list of 
additional measures, in almost all cases the projected emission 
reductions still fall short, and often well short, of the 
President's 2025 goal. That the administration, which has 
thus--shown thus far no reticence when it comes to regulating 
greenhouse gases, still can't figure out how to reach its 2025 
goal without everything breaking just right demonstrates how 
unrealistic its goal really is.
    Third, the Paris emissions pledges are hugely unequal, and 
will not change appreciatively the rising trajectory of global 
emissions. While the United States, Europe, Japan, and a few 
other countries have offered up deep emission cuts, nearly all 
developing countries, particularly the large emerging 
economies, have offered little beyond business as usual. 
Differentiation among the parties is alive and well. A recent 
report from the Framework Convention estimates that, even in 
the unlikely event all the Paris pledges are implemented to the 
letter, global emissions will still rise nearly 1/5 between 
2010 and 2030, within the range of where emissions were headed 
anyway.
    Fourth, the disparity in commitments results from the fact 
that most countries place greater emphasis on economic 
development than they do on cutting greenhouse gas emissions. 
More than a billion people worldwide still lack access to the 
modern energy services that could lift them out of poverty. 
Coal will remain for some time the fuel of choice for 
electrification in developing countries. Using data from 
plants, we estimate that during the Paris climate talks, about 
1.2 trillion watts of new coal fired power plants were under 
construction, or planned throughout the world. That's about 3-
1/2 times the capacity of the entire U.S. coal fleet. This is 
not a carbon constrained world.
    Fifth, the administration's plan will likely result in 
emissions from the U.S. leaking to other countries, merely 
moving, not reducing them. The United States has a tremendous 
energy price advantage over many of its competitors. 
Overregulation from EPA, however, could force energy intensive 
industries to flee to other countries, similar to what we are 
seeing in Europe, where climate and other policies have driven 
up energy costs to industry two to four times higher than here 
in the United States.
    Sixth, developing countries have made it plain they will 
not undertake any meaningful commitments without large doses of 
financial aid. Developed countries have pledged $100 billion 
annually by 2020, and are expected to increase that amount by 
2025. A great deal of the U.S. share of this--will have to be 
appropriated by Congress.
    Seventh, although parties agree to a non-binding aim to 
limit the global temperature increase to well below 2 degrees C 
from the pre-industrial level, the parties, as they have in the 
past, refuse to agree to a global emissions pathway that they 
believe would be needed to meet this goal. It is exceedingly 
unlikely that they ever will. This temperature target, 
therefore, will remain what it has always been, a political 
symbol of little practical consequence.
    Finally, technology is the key. At its most fundamental 
level, reducing greenhouse gas emissions is a technology 
challenge. Existing technologies can make a start, but as we 
have seen, they are not capable of significantly cutting 
emissions on a global scale, and at an acceptable cost. That is 
why the Chamber will continue to emphasize energy efficiencies 
and policies designed to lower the cost of alternative 
energies, rather than raising the cost of traditional energy.
    In closing, back in 1997 the Clinton Administration offered 
up an unrealistic U.S. goal, disregarded clear guidance from 
the Senate, and signed the Kyoto Protocol, a treaty it knew was 
politically untenable, and therefore never bothered to submit 
to the Senate for its advice and consent. Now it looks like the 
Obama Administration may have repeated the mistake of ignoring 
Congress, signing on to a lopsided deal, and making promises 
future presidents and Congresses may be neither willing, nor 
able, to keep. As the late, great Yogi Berra once quipped, it's 
deja vu all over again. Thank you.
    [The prepared statement of Mr. Eule follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Smith. Thank you, Mr. Eule, and Dr. Christy?

                 TESTIMONY OF DR. JOHN CHRISTY,

              PROFESSOR OF ATMOSPHERIC SCIENCE AND

          DIRECTOR OF THE EARTH SYSTEM SCIENCE CENTER,

              UNIVERSITY OF ALABAMA IN HUNTSVILLE

    Dr. Christy. Thank you, Chairman Smith, and Ranking Member 
Johnson, for the opportunity to speak about climate change. I'm 
John Christy, Professor of Atmospheric Science at the 
University of Alabama in Huntsville, and Alabama State 
Climatologist. I've served in many climate science capacities, 
including as lead author of the United Nations IPCC. My 
research might best be described as building datasets from 
scratch to help us understand what the climate is doing, and 
why.
    I begin with the chart on display. This particular chart 
has caused considerable anxiety for the climate establishment, 
who want to believe the climate system is overheating, 
according to the theory of how extra greenhouse gases are 
supposed to affect it. The message is very simple. The theory 
does not match the observations as measured independently by 
both satellites and balloons. With that, a tax on those of us 
who pay attention to such evidence, and on the data themselves, 
have been remarkably sophisticated. From Congressional 
investigation of our finances, to well-funded videos, to 
reporters' inquiries, for all of our notes, phone calls, 
expenses, reimbursements, e-mails, letters, and so on.
    At the core of these activities is the belief that someone 
who does not go along with the climate establishment must be on 
the payroll of scurrilous organizations. These attacks attempt 
to persuade people not to consider the data of the bulk 
atmosphere, the surface to about 50,000 feet. One attack says 
the satellites do not measure temperature. They do. As my 
colleague, Roy Spencer, points out, they measure temperature by 
emission, which is the same way a doctor measures your body 
temperature with an ear probe. Another attack says that the 
vertical fall of the satellites makes the readings unreliable. 
This problem was corrected 20 years ago for a different 
measurement, but the measurement shown here, this was never a 
factor involved.
    In a similar assertion, the claim is made that there was an 
error in the correction for the east-west drift of the 
satellites, but, again, that does not apply to the measurements 
shown here, but to a different layer, and that was fixed ten 
years ago. My written testimony goes into more detail about how 
these attacks on the data are misdirections, or simply wrong. 
They are designed to divert your attention away from the 
critically important result of how significantly the 
theoretical impact of greenhouse effect, on which policy is 
based, differs from reality. It is a bold strategy on the part 
of many of the climate establishment to put one's confidence in 
theoretical models, and to attack the observed data. To a 
scientist, this just doesn't make sense.
    My written testimony also examines issues, excuse me, 
related to the surface temperature datasets. I attempt to make 
the case that the surface temperature measurements are less 
effective at detecting climate change than the bulk atmospheric 
measurement shown here. First, the variations of the basic 
physical measurement are not as directly related to greenhouse 
gas impact as is the upper air, and then there are other issues 
that affect the surface temperature, such as problems with 
human development around the stations, and huge changes in the 
way the measurement was actually made through the years.
    What about the Paris agreement? No one knows the impact of 
this agreement, because no one knows whether any country will 
follow through on its voluntary aspirations at all. However, we 
do know that even so-called green countries, like Germany and 
Japan, are today adding to their carbon emissions by building 
more coal-fired power plants, and the rest of the world is 
moving forward with affordable carbon-based energy. These 
present trends of emissions indicate very little will be done 
because carbon-based energy is the foundation of the world's 
improving welfare, and I believe this will continue until 
something even more affordable is discovered.
    With no certainty on future emissions, I've done a thought 
experiment. As I note in my written testimony, if the United 
States had disappeared in 2015, that's no more people, no cars, 
no industry, nothing, the impact on the climate system would be 
a tiny few hundredths of a degree over 50 years. And that's if 
you believe climate models. So, to me, it is not scientifically 
justifiable or economically rational that this nation should 
establish regulations whose only discernible consequence is an 
increase in economic pain visited most directly and harshly on 
the poorest among us. This happens when the scientific process 
that allegedly underpins regulations lacks objectivity and 
transparency, and becomes associate with attempts to shut out 
any evidence that questions the regulation's assumptions. Thank 
you very much.
    [The prepared statement of Dr. Christy follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
        
    Chairman Smith. Thank you, Dr. Christy. Dr. Steer?

                 TESTIMONY OF DR. ANDREW STEER,

                       PRESIDENT AND CEO,

                   WORLD RESOURCES INSTITUTE

    Dr. Steer. Thank you very much indeed, Chairman Smith, and 
Ranking Member Johnson. It's a great honor for me to be back in 
front of this Committee again. My name is Andrew Steer, and I'm 
President and CEO of the World Resources Institute. WRI is a 
non-profit, non-partisan research institution, our 500 
professionals work in 50 countries.
    Mr. Chairman, the Paris agreement is a big deal for the 
world, and a good deal for America. It has transformed the 
climate change landscape. 187 countries submitted their climate 
pledges as part of an agreement, a remarkable level of 
participation that we've never seen before. Developed and 
developing countries are now united in a common framework, as 
the U.S. has been pushing for. The World Resources Institute 
has analyzed over a dozen major studies, adding up the pledges, 
and found that they will substantially reduce global emissions 
below our current path. They'll put us on a track for a world 
that warms 2.7 to 3.7 degrees Celsius, compared to a business 
as usual increase of 4 to 5 degrees Celsius. But they still 
don't go far enough to avoid some of the worst impacts of 
climate change, but fortunately the agreement sets up the right 
conditions for future improvement. It establishes an ongoing 
regular process to increase action every five years, with an 
ultimate goal of limiting temperatures well below 2 degrees 
Celsius.
    We believe the agreement strikes the right balance between 
what is legally binding and what is not. If the country targets 
had been legally binding, not so many countries would have 
signed up, probably including the United States. What is 
legally binding is a set of actions relating to measurement, 
reporting, transparency, and a review mechanism designed to 
ramp up ambition. In this regard, it's actually a very modern 
form of an agreement, particularly in the context of rapidly 
falling costs of green technology, and a growing recognition 
that strong climate action is good for business. Countries like 
China and India have stepped up to the plate to take action. In 
2015 China once again broke world records for the most wind and 
most solar capacity installed in one year, almost twice the 
investment here in the United States. India is aiming to 
install 100 gigawatts of solar power by 2022, 30 times the 
current level, and 5 times higher than their previous target.
    Mr. Chairman, America's businesses and cities are 
supportive of the Paris agreement. It wasn't just national 
governments taking action in Paris. It was CEOs, bankers, 
mayors, governors who were pushing the hardest for the deal, 
and announcing new climate efforts of their own. 114 companies, 
including Coca-Cola and General Mills, committed to setting 
serious ambitious emissions targets aligned to climate science. 
63 companies, including Walmart, Google, and Microsoft, pledged 
to transition to 100 percent renewable power in the shortest 
practicable timeframe. The six biggest banks in the United 
States issued a statement in favor of a global agreement. 450 
cities joined the Compact of Mayors, a coalition of city 
leaders dedicated to reducing emissions, including 120 from the 
United States.
    This flood of support is indicative of a new understanding 
of the relationship between climate change and the economy. 
Growing evidence from groups like the Global Commission on the 
Economy and Climate is proving that strong climate action is 
compatible with, and actually even necessary, for economic 
growth. And this is why 365 companies, including Adidas, 
Unilever, Gap, and Staples, wrote to U.S. governors last year 
in strong support of the EPA's carbon pollution standards for 
existing power plants. They wrote, ``Our support is firmly 
grounded in economic reality. Clean energy solutions are cost-
effective and innovative ways to drive investment. 
Increasingly, businesses rely on renewable energy, and energy 
efficiency solutions, to cut costs and improve corporate 
performance.'' The 365 companies who wrote this letter know 
that the smart money increasingly lies in the sustainable 
economy.
    Mr. Chairman, the United States is a leader in delivering 
improvements in energy efficiency, cleaner fuels, and new 
technologies. We're already seeing the benefits. Last year the 
U.S. solar industry added workers at a rate nearly 12 times 
faster than the overall economy. Transitioning to a clean 
energy economy will create hundreds of thousands of more jobs, 
increase GDP, and save families money on energy bills. But, if 
unchecked, the negative economic impact of climate change will 
profoundly undermine the U.S. economy.
    Mr. Chairman, our analysis shows that the U.S. is already 
well positioned to meet its international climate commitments, 
but it will require continued strong leadership. The Paris 
agreement was a great achievement, but now is the time to go to 
work. Thank you, I look forward to answering your questions.
    [The prepared statement of Dr. Steer follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Chairman Smith. Than you, Dr. Steer. That was perfectly 
timed at five minutes. Mr. Groves?

                TESTIMONY OF MR. STEVEN GROVES,

                 THE BERNARD AND BARBARA LOMAS

                    SENIOR RESEARCH FELLOW,

             MARGARET THATCHER CENTER FOR FREEDOM,

                    THE HERITAGE FOUNDATION

    Mr. Groves. Thank you, Mr. Chairman, for inviting me to 
testify today regarding the Paris agreement on climate change, 
and whether it's a bad deal for America. And I'll leave it to 
climate scientists and economists to say whether it's a bad 
deal for the economy, but as a lawyer, what I can say is that 
the Paris agreement is a bad deal for the Constitution, for the 
separation of powers doctrine, and for the already strained 
relationship between Congress and the Executive Branch.
    Over the course of the past seven years, President Obama 
has taken many unilateral actions of dubious legitimacy. The 
President's decision to treat the Paris agreement as an 
executive agreement, instead of a treaty, is just his latest 
use of executive power to achieve an end that he knows full 
well would not pass Congressional muster. The President's 
decision is particularly egregious because it flies in the face 
of an agreement made between the White House and the Senate in 
1992. Back then, during the ratification debate over the U.N. 
Framework Convention on Climate Change, the Senate was 
concerned that President Bush, or future presidents, would 
negotiate agreements that contained emissions targets and 
timetables without submitting those agreements to the Senate. 
The Senate, then controlled by Democrats, required assurances 
that any future agreement containing targets and timetables be 
submitted for advice and consent. President Bush agreed on 
behalf of the Executive Branch, and the commitment was 
memorialized in the Senate's ratification documents for the 
Framework Convention.
    The next president lived up to this agreement. When 
President Clinton negotiated the Kyoto Protocol in 1997, he 
treated it as a treaty, requiring the advice and consent of the 
Senate. But the Kyoto Protocol was so unpopular that the Senate 
passed a resolution of disapproval on it by a vote of 95 to 0 
before it could even be submitted to the Senate. To his credit, 
President Clinton did not attempt to circumvent the Senate, nor 
did he simply declare that the Kyoto Protocol was an executive 
agreement that didn't require Senate approval. He lived up to 
the commitment that was made in 1992.
    But here we are in 2016, with a president that is unwilling 
to live up to the commitments of his predecessors. The 
President has negotiated a major climate change agreement under 
the auspices of the Framework Convention that contains targets 
and timetables, but he has refused to submit it to the Senate. 
The President is treating the Paris agreement as an executive 
agreement, and the reason is simple, political expediency. The 
President knows that there are nowhere 67 votes in the Senate 
to approve an agreement that requires the United States to send 
billions of dollars to the Green Climate Fund annually, and in 
perpetuity, to make aggressive emissions reductions, and to 
ratchet those reduction levels up every five years, and to 
submit itself to an International Review Committee that will 
shame the U.S. in the event that the U.S. does not live up to 
its obligations.
    Now, in addition to ignoring the 1992 agreement with the 
Senate, the President is simply pretending that the Paris 
agreement isn't a treaty in its own right, even though the 
objective criteria used by the State Department indicate that 
the Paris agreement is a treaty, and not a mere executive 
agreement. Specifically, when the U.S. is negotiating an 
international agreement, the State Department uses something 
called the Circular 175 Procedure to determine whether it is a 
treaty or an executive agreement. And as I detail in my written 
testimony, when you apply the eight factors of the C-175 
Procedure to the Paris agreement, it's very clear that it 
should be treated as a treaty. But the President has chosen to 
ignore the C-175 Procedure, in the same way that he has chosen 
to ignore the 1992 agreement between the Executive Branch and 
the Senate.
    As a result of the President's unilateral actions, and his 
abuse of executive authority, in my view, the Paris agreement 
lacks democratic legitimacy. For that reason, unless and until 
the Paris agreement is submitted to the Senate, Congress should 
refuse to appropriate U.S. taxpayer dollars for the Green 
Climate Fund, or any other financial mechanism associated with 
either the Paris agreement or the Framework Convention. 
Congress should also continue to resist and disapprove all 
regulations meant to implement the Paris agreement 
domestically.
    Thank you again, Mr. Chairman, for inviting me, and I look 
forward to answering any of your questions, or the questions of 
the Committee.
    [The prepared statement of Mr. Groves follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    
    Chairman Smith. Thank you, Mr. Groves. Let me direct my 
first question to Mr. Eule, and it is this. In your opinion, 
what are the costs of implementing the Paris agreement to the 
United States? And when I mention costs, I include the impact 
on jobs as well. Make sure your mike is on there.
    Mr. Eule. It's difficult to say what exactly the costs will 
be, but it's surely going to cost quite a bit. When you look at 
some of the projections for reducing greenhouse gas emissions 
significantly globally, we're talking trillions of dollars, 
perhaps tens of trillions of dollars in costs. And the U.S. 
share of that would depend on what happens in negotiations, but 
it would be a significant amount.
    Now, when you talk about the $100 billion that's supposed 
to be mobilized by 2020, that's supposed to be ratcheted up by 
2025, the U.S. share of that is under negotiation. And there's 
a big discussion within the Framework Convention as to whether 
that should be government funding, or whether that should be 
private sector funding, or a combination of both. But I think 
it's safe to say that a large percentage of that will have to 
come from the government, and that will be money that has to be 
appropriated by the Congress, and it's going to run into 
billions of dollars.
    The impact this is going to have on the United States is 
significant. The United States, as I mentioned in my testimony, 
has an energy price advantage over many of its competitors. Two 
to four times--we pay two to four times less than many of our 
competitors in the OECD. You know, if that competitive 
advantage goes away, I think we can see a lot of energy 
intensive industries fleeing the country, as we're seeing in 
Europe. We're seeing, in Europe, steel mills closing. We're 
seeing--saying--companies saying they're not going to be 
investing in Europe anymore. We're seeing power companies 
saying they're not going to invest in Europe anymore. The same 
thing could happen here, and I think that's why we have to take 
a strong look at the big disparity in what the U.S. is 
promising, and what other countries are promising.
    Chairman Smith. Okay. Thank you, Mr. Eule. Dr. Christy, 
NOAA recently claimed, to great fanfare, that 2015 was the 
warmest year on record. Now, this is the same organization that 
claimed 2014 was the warmest year on record, and when we read 
the footnotes, they actually said they were only 38 percent 
sure that that was the case. In regard to their claim about 
2015 being the warmest year on record, what are the weaknesses 
with the data they're using? How good is their accuracy?
    Dr. Christy. Well, this is a new dataset that's come out, 
and hasn't had much scrutiny on it. We've tried to reproduce 
parts of it, and have been unable at this point. It's a strange 
kind of way to--that it was constructed. Relative to 2015, we 
have a better way, I think, to measure the climate system, and 
that's the bulk atmosphere. That's where the real mass of the 
climate system exists, in terms of the atmosphere, and 2015 was 
not the warmest year. It was either second to fourth, depending 
upon which dataset you use. So the fact that that information 
is not provided to the American public by a government agency 
is disturbing to me, because the evidence is there that 2015 
was not the warmest year.
    Chairman Smith. Okay. Thank you, Dr. Christy. Mr. Groves, 
thank you for your strong testimony, and appreciate especially 
your history of the 1992 agreement between the Senate and the 
Executive Branch, and also the definition of agreement and 
treaty as the State Department itself has determined. And it is 
breathtaking to have a president that ignores this, and abuses 
his executive authority, in my judgment.
    My question is this: to what extent are President Obama's 
promises at the Paris meeting legally binding upon our country?
    Mr. Groves. Well, I mean, there are commitments made 
throughout the Paris agreement. The Paris agreement is a 
legally binding agreement. Just because it's not--he doesn't 
consider it a treaty doesn't mean it's not legally binding. 
Executive agreements can be legally binding, like status of 
forces agreements, or even the agreement that we're working out 
with Iran on the nuclear deal. The important thing to note is 
that the other 195 countries certainly believe that the United 
States will be legally bound by its commitments. Not only its 
commitments to reduce its emissions on certain targets and 
timetables, but mostly important for them to transfer billions 
and billions of dollars annually to the Green Climate Fund, and 
other climate mechanisms that they're going to use in their 
countries.
    Chairman Smith. What power does the next president have? I 
mean, is the next president obligated to enforce what this 
president agreed to?
    Mr. Groves. Well, the rest of the world would certainly 
believe that the next president would be required to live up to 
the U.S. commitments under the Paris agreement. However, since 
the President currently characterizes the Paris agreement as a 
mere sole executive agreement, any incoming president may 
withdraw from it, in the same way they can withdraw from other 
executive agreements made with other countries. There are going 
to be political consequences to that with our allies, but, 
unlike a treaty, it's much more simple to unwind a sole 
executive agreement.
    Chairman Smith. Okay. Thank you, Mr. Groves. And the 
gentlewoman from Texas, Ms. Johnson, is recognized for her 
questions.
    Ms. Johnson. Thank you very much, Mr. Chairman. Dr. Steer, 
before I ask you a question, I'd like to congratulate you on--
and all the staff at WRI for being named the number one 
environmental policy think tank in the world by the 2015 Global 
Go To Think Tank Index Report.
    The launching of the Breakthrough Energy Coalition, the 
world's largest clean energy research and development 
partnership, is a prime example of the commitment by the 
private sector to addressing climate change, and it is clear 
that, from your testimony, that businesses have recognized the 
importance of taking action against climate change. Can you 
please comment on the importance of the private sector in 
addressing climate change?
    Dr. Steer. Thank you very much indeed. Yes, I think one of 
the things that's happened in the last five years is a radical 
shift in our understanding about the link between economic 
growth and climate change. I was in Davos last week, at the 
World Economic Forum. There's an overwhelming sense now on the 
part of business leadership in the largest companies in the 
world that actually we have to do something about climate 
change, and doing it smartly will make us more efficient, more 
competitive. And that's why you have these really remarkable 
sort of major companies, you know, 1,000 companies have now 
said, we want a price on carbon.
    And one of the reasons for that is that they're currently 
living in no man's land. You know, they don't know, well, there 
is, or there isn't going to be, and so investment is lower than 
it should be. And what we now know--there's a lot of empirical 
evidence that if you take smart actions on climate change, you 
can promote efficiency, you can bring in technology, and you 
can give long term confidence, which is what business really 
needs. So it's a very exciting time.
    Now, one of the interesting things is that it's not only 
the manufacturers and the retailers, it's actually the 
financial sector as well. I mean, in Paris, 400 investors, 
representing 24 trillion in assets, have signed up to the 
global investment statement on climate change, pledging to seek 
out and scale up low carbon and resilient investments. And so 
what we're seeing, and it's very relevant to this Committee, 
obviously, is that the agreement by the United States and 20 
other countries to double their investment in research at the 
public level, plus the Bill Gates commitment, together with 
another 25 billionaires, if you like, to really move things 
forward, and to link together, is an incredibly exciting 
development.
    Ms. Johnson. Yes. In his testimony, Mr. Eule stated that 
the emerging economies have showed very little interest in 
reducing emissions in any meaningful way, and that most 
developing countries will just continue to operate in a 
business as usual manner under this agreement. You have a much 
more optimistic view of the impact and effectiveness that the 
Paris agreement will have on global emissions. Can you please 
elaborate on why you believe all countries, including 
developing countries, will deliver on this emissions reduction 
commitment?
    Dr. Steer. I don't think it's that I'm optimistic. I think 
we look at the facts. We leave our opinions at home, and we 
look at the facts. In China--most people still perceive China 
to be opening up hundreds of coal powered plants, and 
increasing their use of coal. In 2014 China shrank its 
consumption of coal. In the first 10 months of 2015, coal 
consumption in China fell by nearly five percent. So coal 
consumption in China is actually now peaking. We're not 
absolutely certain whether it'll go up this year or not, but it 
looks like it's now on a downward trajectory. In the meantime, 
China invested $120 billion on renewable energy last year. So 
things are changing, and countries like Brazil are now 
committed to actually reducing, in an absolute sense, as I 
think Mr. Eule made that in his written testimony, that--an 
absolute reduction. And countries like Mexico as well are 
really doing very remarkable things.
    Ms. Johnson. Thank you. Now, what do you make of the claim 
that the U.S. Chamber of Commerce made, that most businesses in 
the U.S. are opposed to this deal?
    Dr. Steer. Well, I think we're still on a journey, quite 
frankly. Just because the United States as a whole, our economy 
and our society, would benefit from serious action, that 
doesn't mean that every single industry and every single 
company--and the history of change is that those who have a 
vested interest in the--in not changing are much more vocal, 
including in trade associations, than those who would benefit.
    And so we're on a journey, as we have been in many other 
areas, and each year we're seeing more and more coming on 
board, and we've seen it in the last 12 months in an 
unprecedented way.
    Ms. Johnson. Thank you very much. Mr. Chairman, I'd like to 
enter the articles I mentioned earlier into the record, in my 
opening statement.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Chairman Smith. Thank you, Ms. Johnson, for your questions. 
And the gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. So let's talk about the economic impact, 
and maybe Mr. Eule would like to have his say on that as well. 
Mr. Eule, could you--we just heard about how it's going to be 
more efficient to go over to a non-carbon-based energy source. 
That's what we're really talking about. It's my understanding 
that oil, and gas, and coal, at their fundamental, is much more 
efficient than any other method that we've got at this point to 
produce the same amount of energy. Thus, if we're not using 
those efficient methods, that means that some sort of wealth is 
having to be consumed that otherwise wouldn't be consumed, 
which it seems to me destruction of the manufacturing of wealth 
would hurt normal people. Maybe you could comment on that?
    Mr. Eule. Yeah. I think I understand the question.
    Mr. Rohrabacher. I mean, fundamentally, the economics--
we're being told the economics----
    Mr. Eule. Right.
    Mr. Rohrabacher --is actually working in behalf of moving 
in the direction--the global warming direction, pardon me, of--
making that a major goal, bringing down the climate--bringing 
down the temperature. I mean, is that what you're reading? 
Obviously it's not. Maybe you could just get in a discussion--
--
    Mr. Eule. Yeah, I----
    Mr. Rohrabacher. --over that.
    Mr. Eule. Yeah, I think when you look at where alternate 
technologies are, they're still more expensive than more 
traditional energy technologies. I think that's pretty plain. 
They intermittency issues, so that--and, you know, the question 
is, can they be scaled up to provide the energy that people 
need to lift themselves out of poverty worldwide?
    You know, when you think about climate change, like I said 
in my testimony, it's a technology challenge. And as long as 
alternate technologies are more expensive and less reliable 
than traditional technologies, people are going to use 
traditional technologies, because it's more important, 
especially in the developing world, it's more important for 
them to provide energy to their people. And they will continue 
to use these technologies, because they make sense.
    Once alternate technologies are competitive with 
traditional technologies, a lot of these issues go away, quite 
frankly. The--we won't need a big international----
    Mr. Rohrabacher. Right.
    Mr. Eule. --conference to decide how to change the, you 
know, the energy systems of these countries, because people 
adopt these technologies anyway because they make sense. They 
don't at this point, but they will one day in the future, but 
we just don't know when that's going to happen.
    Mr. Rohrabacher. So any businessman that runs a corporation 
that is not going to more efficient use of energy is wasting 
the resources of his company, and that would happen naturally, 
hopefully, that people are making their adjustments to go to 
more efficient methods of using the energy for their company.
    Let me ask Dr. Christy--the--when we talk about what was 
the most--the hottest day, this--isn't this important? Because 
if indeed there's been this massive increase in the amount of 
CO<INF>2</INF> in the atmosphere over these last 20 and 30 
years, if indeed the--that has not resulted in these hottest 
days, does that not disprove the CO<INF>2</INF> theory of--that 
CO<INF>2</INF> is causing the climate to change?
    Dr. Christy. Okay, in terms of the hottest days, I think 
you're referring to the chart on--when a number of 100 degree 
days occurred in the United States, that one that shows in the 
'30s many more occurred than today. So when you look at the 
United States' record of extreme high temperatures, you do not 
see an upper trend at all. In fact, it's slightly downward. 
That does fly in the face of climate model projects.
    I just had a paper accepted for a publication in which we 
looked at Alabama, and that very thing. Not one single one of 
the 76 climate models ran came close to producing what actually 
happened in Alabama's climate over the last 120 years. So I 
think my bottom line here is I would not trust model 
projections on which all the policy is based here, because they 
just don't match facts right now.
    Mr. Rohrabacher. So if the facts are that we are not having 
this dramatic increase in temperature that we've been told that 
we're having, at a time when CO<INF>2</INF> has been increasing 
dramatically, and use--the amount of CO<INF>2</INF> going into 
the atmosphere has been dramatically increasing, well, then 
that would suggest that the CO<INF>2</INF> theory of climate 
change is just inaccurate.
    Dr. Christy. Well, I'm very happy to say you're acting like 
a scientist here. When a theory contradicts the facts, or the 
other way around, you kind of try to change the theory. And 
that's what we've shown, is that the key metric, the bulk 
atmospheric temperature, is not obeying what climate models 
say. The real world is not going along with that rapid warming, 
and so that should tell us our understanding is not sufficient 
to explain what is happening in the real world. We don't know 
how CO<INF>2</INF> is affecting the climate.
    Mr. Rohrabacher. So the models based on this are obviously 
incorrect?
    Dr. Christy. The models need to go back to the drawing 
board, I think.
    Mr. Rohrabacher. Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher. And the 
gentlewoman from Maryland, Ms. Edwards, is recognized for her 
questions. I'm sorry, the gentlewoman from Maryland is not 
here. The gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman. You know, as a scientist 
and a physician, I agree, you gather the facts, and you take 
those facts, and you make a decision. I don't think anyone 
disputes that both NASA and NOAA look at 2015 as the hottest 
year on record. I don't think anyone disputes, you know, that 
the--that climate does change. I mean, in my home state of 
California, we've gone through several years of devastating 
droughts, loss of the snow pack. I'm grateful that we're 
getting a lot of snow, and, you know, we're getting that snow 
pack, and we're getting a lot of rain, and El Nino, but climate 
does fluctuate, and it changes, so I think we can agree on that 
as well.
    You know, we do--if we look at extremes of climate, we're 
having more extremes of climate. If we take the fact that, you 
know, look at our poles, North Pole, Antarctica, you know, 
we're seeing more glacial melt off, and, you know, more 
extremes of melt. So those are the facts, and we should accept 
those facts. We can debate what's causing this, and we 
certainly should have that robust debate, but based on those, I 
think many of us take these as just objective facts of what's 
happening.
    We're seeing, you know, in my colleague, Congressman Derek 
Kilmer's district, you know, Native American tribes that have 
lived on coastal plains for thousands of years are now subject 
to chronic flooding, and having to move to high ground. So, 
again, we can take those facts. This body then has to debate 
what can we do to help move this forward?
    You know, Dr. Steer, if I think about it, it can't just be 
one country moving forward, because we're talking about a 
global climate. The reason why you have to act as an 
international community is setting targets. And, again, I 
think--what I was pleasantly surprised about at the Paris 
accords is, you know, some of the countries that we have the 
most concern about, countries like India, who, I think, many of 
us thought could really undermine the Paris accords, really 
stepped up to the plate. I mean, and this is a country that 
will be making massive investments in energy. You know, the--
300 million Indians have no reliable electrical source. There 
is a real opportunity to come up with innovative electrical 
sources in a very different way, using alternative and 
renewable energies.
    And, you know, I guess, Dr. Steer, as we look at this, 
you've already indicated corporate America gets the economic 
opportunity here. Many of us get the job creation opportunity 
here. And what would you say if, you know, the next concrete 
steps, and also what the facts are?
    Dr. Steer. Well, thank you, Congressman Bera. I agree very 
much with you. Look, no individual country operating on its own 
can address this problem. Global problems require international 
cooperation. That's been massively lacking for the last quarter 
century. And what we've seen in the last year, actually, is 
potentially the emergence of a new multilateralism, and it's a 
multilateralism led by the United States.
    Because the United States, including the George W. Bush 
Administration, and the current administration, have said, 
look, we are not going to put ourselves under some global 
treaty. We are going to have a situation where we are going to 
pledge, we're going to be transparent, and something very 
dynamic is going to happen. And it's going to happen because 
costs are falling, and because signals will be given to the 
private sector. And what we have now in the Paris deal is 
precisely that.
    It's actually a very modern type of deal, because it's not 
based upon sending you to prison, or sending you a requirement 
to pay something if you don't deliver. It's rather saying, 
look, we are going to move in a certain direction. Every year 
that passes, costs are falling. And that's why Prime Minister 
Modi, you know, as you say, he came into power--he didn't come 
in, you know, committed to the environment. He came in to 
promote economic growth. He looked at his solar targets, which 
were 20 gigawatts by 2022, and he said, let's quintuple them, 
to 100. Why did he do that? It wasn't because he, you know, 
wanted to look good on the international stage. He actually did 
it because he wanted to promote a new industry. He wanted the 
notion that there were factories that are going to be built, 
and that's exactly what he's going to do, and that's why China 
is spending 120 billion on renewable energy last year. So 
something is going on out there that is going to lead to an 
upward----
    Mr. Bera. Because the economics make sense. And if we want 
to be smart, and we're looking at 21st century industry, I want 
our companies to be creating those new energy sources. I want 
our company to--our companies to lead solar and wind, the 
thousands of jobs that are going to be created. And, again, 
let's be smart about this, and let's win this. And this is 
smart business, it's smart investment, and it does protect our 
planet for the next generation. It's the right thing to do, so 
thank you. I yield back.
    Chairman Smith. Thank you, Mr. Bera. The gentleman from 
Texas, Mr. Weber, is recognized for questions.
    Mr. Weber. Thank you, Mr. Chairman. Mr. Steer, in your 
exchange with my good friend Eddie Bernice Johnson from Texas, 
you got pretty exuberant one time, and you said there's 25 
billionaires involved. Do you remember that exchange with her? 
Do you remember that? Yeah. So I take it, because of the, I 
guess, status of being a billionaire, I take it, in this 
current presidential campaign, you would be a Donald Trump 
supporter?
    If--so--here's my question for you, Dr. Steer. If climate 
change theory is right, assuming that all other countries 
comply--that all the other countries comply, and don't cheat, 
then we will all stay equal, as it were, quote, unquote, in our 
respective competitive positions. We're talking about global 
marketing now. But, if the theory is wrong, or if countries 
cheat, not that they would ever do that, the U.S. stands to 
lose the most, in terms of our competitive position. Does 
either one of those two scenarios I just laid out concern you?
    Dr. Steer. Well, as--I think it was--Mr. Eule made the 
point that, actually, at the moment, the United States, for 
example, has a great cost advantage in electricity. Consider 
the steel industry in Indiana. The cost of electricity to the 
steel industry is about 60 percent what it is in Hebei 
Province, which is the sort of big steel section of China. 
Under the U.S. Clean Power Plan, the estimation is that 
electricity prices will rise between five and ten percent, and 
then would fall back down again. So even under that, we don't 
have to worry about the competitiveness of the United States 
steel industry. The academic evidence----
    Mr. Weber. Well, that's really my question, is are you 
concerned about either one of those two scenarios, whether we 
lose our competitiveness, or that the other companies--other 
countries would cheat? Are you concerned about either one of 
those?
    Dr. Steer. I fear that we will lose our competitiveness if 
we do not act on climate.
    Mr. Weber. If you don't act?
    Dr. Steer. Yeah.
    Mr. Weber. Mr. Eule, let's go to you. Do you--do I need to 
lay out those two scenarios again? Are you----
    Mr. Eule. Congressman, it's a very big concern. I mean, all 
you have to do is look at what's going on in Europe. There--in 
Europe, energy intensive industries are becoming an endangered 
species, and they're even recognizing now that they have a real 
problem. And when you talked five years ago in Europe about 
energy, it was all focused on climate change. Now it's--there's 
still a focus on climate change, but they're talking more now 
about competitiveness, and how they're going to position 
themselves in a competitive world. And I think we're headed 
down the same path----
    Mr. Weber. Yeah.
    Mr. Eule. --if we're not careful. And I would like to point 
out, about China, and China's adoption of renewable energy, 
it's also true that China has, under construction, planned 
about 460 billion lots of coal fired power plants, and India 
has about 360 billion lots of coal fired power plants, either 
planned or under construction.
    Mr. Weber. So are you suggesting----
    Mr. Eule. India----
    Mr. Weber. Are you suggesting we sic the EPA on them?
    Mr. Eule. Well, I'm just saying, you know, in the--made the 
pledge in Paris, and after Paris they still said that they're 
going to go ahead with their goal to double coal production in 
five years. So while a lot of countries are making baby steps 
toward renewables and alternative technologies, coal is still 
going to be the go-to fuel for providing electricity in these 
countries.
    Mr. Weber. Okay. Thank you. And, Dr. Christy, I'm coming to 
you, those same two scenarios. Are you concerned about either 
of those two scenarios?
    Dr. Christy. Well, I look--are you talking about if the 
climate models are wrong?
    Mr. Weber. Well, if climate change theory is right, okay, 
then, assuming all countries comply, and don't cheat, and we 
all stay equal, as it were, in our respective competitive 
positions, but if it's wrong, or if those countries cheat, then 
we lose our competitive position. Are you concerned about that?
    Dr. Christy. Well, the one I study is the climate model 
issue the most, and the evidence, to me, indicates they're 
wrong. They just--the data is not matching up with----
    Mr. Weber. And you're very concerned about that?
    Dr. Christy. I'm very concerned. That's why I showed the 
picture.
    Mr. Weber. Let me move on to Mr. Groves, thank you. Mr. 
Groves, I know you raised a Constitutional issue, which I 
appreciate, and I am concerned about that, but just as you and 
me talking now----
    Mr. Groves. Um-hum.
    Mr. Weber. --the scientists don't get the Constitutional 
issue, so----
    Mr. Groves. And I don't get the----
    Mr. Weber. You didn't hear me say that, right? But you're--
would you be concerned about that scenario as well?
    Mr. Groves. Well, the area that I would be concerned about 
is non-compliance by the other parties. I mean, the U.S.----
    Mr. Weber. Thank you.
    Mr. Groves. --tends to take its treaty commitments much 
more seriously than other countries. That goes to arms control 
treaties, that goes to human rights treaties. And even if the 
U.S. joined this one, and lived up to the letter of its 
commitments, I wouldn't be confident that countries like India, 
or China, or even countries--developing countries around the 
world would find it economically feasible to live up to their 
commitments.
    Mr. Weber. So we would be tying our, as it were, proverbial 
arm behind our back?
    Mr. Groves. Since we would be complying and they----
    Mr. Weber. Absolutely.
    Mr. Groves. --would not, yes.
    Mr. Weber. Thank you. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber. And the gentleman 
from Virginia, Mr. Beyer, is recognized for his questions.
    Mr. Beyer. Thank you, Mr. Chairman, very much. Dr. Christy, 
it was fun to read about your resume. I understand--your 
emphasis on this bulk atmosphere measurement. I mean, I saw you 
won a very distinguished award from NASA in 1991 for your work 
on that, a special medal from the American Meteorological 
Society in 1996 for your work on that and you lay out some 
criticisms of other climate scientists about using atmospheric 
data. You talked about--that they say--you're only measuring 
radiation, not temperature, that you don't allow for orbital 
decay and vertical drop, that you don't allow for the diurnal 
drift problem, the east to west. And then you also responded 
and say, no, you've adjusted for all that stuff.
    But then you go on to criticize the surface measurement, 
saying, you know, one meter deep in the ocean is not the same 
as three meters above, that there's infrastructure buildup that 
they don't allow for. In fact, you even say, and I quote, that 
those who measure at the surface use ``unsystematic measuring 
methods and instrumentation''. So question number one is 
doesn't it make sense to use all of the data we have, both 
yours and the stuff on the surface? And number two, does it 
really make a difference whether 2015 was the first warmest, or 
the second, or fourth, if we're looking at all recorded data?
    And three, doesn't it make sense to look at what's really 
happening, not between 20,000 and 50,000 feet, where we don't 
live, but here, where we have sea level rise all along the 
Virginia coast, where the surges in Norfolk, Virginia are 
getting worse, and worse, and worse, as developed by Lockheed? 
The migration of animals, the migration of insects, and the 
decimation of forests in the north, the migration of tropical 
diseases, which is on the front page of the papers, these days, 
the disappearing Arctic ice, and Greenland ice, and other 
stuff. Shouldn't we put all of these things together, as 
opposed to--you don't like the models, but let's also look at 
what's happening to our lives.
    Dr. Christy. I'll try to back up with those. I might have 
to ask you to remind me what the question----
    Mr. Beyer. I'm sorry.
    Dr. Christy. But for the third one, the bulk atmospheric 
temperature is where the signal is the largest, so that's where 
you go to look for it, if you're a scientist. We have 
measurements of that. It doesn't match up with the models.
    Now, all those other things you've mentioned, if you take 
systematic measurements back 1,000 years for those very issues 
you talked about, I'll bet you'll see the same type of 
variations. The droughts mentioned in California, they were 100 
years long when you go back about 9 or 800 years, not just four 
years, as this one has shown. So I think there's a little bit 
of hyperbole, and all those things that people see changing 
right now, they've always changed, I suspect. What was your 
second question? And then we'll----
    Mr. Beyer. Does it make any difference whether it's the 
first warmest, or the second, or fourth?
    Dr. Christy. No. Individual years, no, it's really not 
critical on that. It's the longer term trend, which is what I 
was showing. That's the more critical parameter, because it 
talks about the accumulation of heat. It's not happening the 
way models project it to. And number one was?
    Mr. Beyer. That's good. I would've loved to have seen the 
rest of that. You stopped at 2025, or 2020, to see where it 
went in 2050 and 2100.
    Dr. Christy. It just kept going.
    Mr. Beyer. Kept going up?
    Dr. Christy. Yeah.
    Mr. Beyer. Mr. Eule, you talked--really fascinating, from a 
Chamber perspective, I'm a businessman also, that you're going 
to look at where the cost-effectiveness of the technologies 
are, that when solar, and wind, and tidal and stuff begin to 
approach the cost of fossil fuel, the problem will take care of 
itself. Exxon-Mobil has come out for a carbon tax, carbon 
pricing. I had a good conversation with the Chairman of BP in 
Davos last week, who said they also support a carbon tax. Would 
the Chamber support a carbon tax to bring these different 
methods into balance, especially if all of the revenue is 
returned to the American citizens, so it was revenue neutral?
    Mr. Eule. We would have to see what the proposal looked 
like. We're--we've never said we were opposed to a carbon tax, 
never said we were in favor of a carbon tax. Never said we were 
opposed to cap and trade, never said we were in favor of cap 
and trade. We always have to see what the legislation says, and 
then we make a decision.
    Mr. Beyer. Okay. That's fair. Thank you very much. Dr. 
Steer, it's been alleged that all of the Paris agreements and 
stuff will have a devastating economic impact. How do you 
reconcile that with the fact, since 2009, no country in the 
world has reduced its carbon footprint more than the United 
States, and we've had 70 straight months of private sector job 
growth, 18 million new jobs since January 20, 2009? How do you 
put those together?
    Dr. Steer. Well, I agree with you, Congressman, that 
actually this is part of this learning that we're doing right 
now. The United States, we here, in this economy, are on the 
forefront of something we didn't understand before, which is if 
you actually focus on the efficiency of economy, you will want 
to emit less greenhouse gases. And smart policies for climate 
change will lead to more efficiency, more technology, more long 
term certainty. So, I mean, I think you're absolutely right.
    The Global Commission on the Economy and Climate, which is 
chaired by President Felipe Calderon, the previous President of 
Mexico, a conservative President of Mexico, you know, he said, 
you know, that--when I was a young politician, he said, I 
believed there was a tradeoff between climate action and 
economic growth. When I was president, and I was chairing the 
G-20, I believed that, actually, economic growth and climate 
action could be compatible. He said, now, I've looked at the 
facts, and I know that long term healthy economic growth is 
only possible with climate action. So I agree very much with 
you, Congressman.
    Mr. Beyer. Thank you much. Thank you, Mr. Chair.
    Chairman Smith. Thank you, Mr. Beyer. And the gentleman 
from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you very much, Mr. Chairman. Several of 
you have, and almost everybody else has referenced the increase 
in cost--energy cost to Americans, and this is all about 
energy. And further down the chain, the increases affect 
virtually every product or service of every American. Example, 
I talked to some people in the cement manufacturing business, 
and they said, under the proposed EPA rules now, if they're 
allowed to go into effect, in my state, half the manufacturing 
will close immediately, and the other half will be able to hang 
on for a year, long enough to get re-established in Mexico. And 
I don't think there's any environmental protection regulations 
of significance in Mexico regulating cement, and the 
manufacturing. And so, you know, unless you believe in such a 
thing as a no peeing section of a swimming pool, you know, we 
still get the pollution, we just pay 400 percent more for the 
product, you know?
    So I wondered, Mr. Eule and Mr. Groves, you had expressed 
to us the bottom line of your thoughts about the U.N. climate 
negotiation. Do you think this is simply an attempt to transfer 
wealth, or do you see other, more legitimate purposes?
    Mr. Groves. Sure. Well, both Mr. Eule and I were there in 
Paris during these negotiations, and we can tell you from 
firsthand experience that the big issue in Paris was money. I 
studied not just agreements like these, but other agreements 
that deal in wealth transfers from the global north to the 
global south, from the developed world to the developing world, 
and the Paris agreement is no exception to the general trend in 
global U.N. agreements regarding global wealth transfer. And if 
it's enforced, that's essentially what will happen.
    Only the developed countries are required to pay into the 
Green Climate Fund, which is going to be $100 billion a year as 
a floor, beginning in the year 2020. And all of those dollars 
go to the developed world, which is in the global south. So if 
that's not kind of a global wealth transfer, I'm not sure what 
is.
    Mr. Eule. I would say there are mixed incentives in the 
talks. But I think what's interesting is what Christiana 
Figueres said. She's the Executive Secretary of the U.N. 
Framework Convention on Climate Change. And it's in my 
testimony, and I'll quote what she said. ``This is the first 
time in the history of mankind that we are setting ourselves 
the task of intentionally, within a defined period of time, to 
change the economic development model that has been reigning 
for at least 150 years, since the Industrial Revolution.''
    So I think a lot of people see these talks as a way to 
change the economic development system, and I think that's 
something we should be concerned about, because the free 
enterprise system that we have has been responsible for the 
biggest boost in human health and welfare in history, and so I 
think we have to be cautious about where these talks go.
    Mr. Posey. And I agree. And it's--and I hadn't intended to 
make this comment, but, you know, we won the Second World War. 
The world is more free today because we had enabled 
industrialists to produce, and we out produced the enemy. And 
here, I mean, I think most people have the common sense to 
understand that most of the rest of the world is in favor of us 
being less productive if it makes them more productive.
    But based on so much that we've seen in the governments 
that they're actually trying to help with our money here, do 
you think that's--any probability that the funds would be 
properly used, or would we see more waste, fraud, and abuse, 
like we have with many other--with many of the other resources 
we use to disperse Americans' wealth to other people?
    Mr. Eule. Well, I think, certainly, if Congress is going to 
be appropriating the money that goes into the fund, Congress 
should have a say in how it's spent. And there are rules that 
are being set up in the Green Climate Fund to oversee how the 
money is being spent. But, you know, I think the focus on the 
Green Climate Fund is a little bit displaced, because a lot of 
the money is not going to go through the Green Climate Fund. 
Even the Obama Administration has said we're not going to be 
sending $100 billion through the Green Climate Fund. That is 
just not going to happen. A lot of it's going to go through the 
World Bank. A lot of it's going to go through other development 
banks. Some of it will go through the Green Climate Fund. But 
it's going to be coming from--the $100 billion that the 
developed countries have pledged to mobilize is going to be 
coming from a lot of different sources, and so that makes it a 
little bit more complicated to track actually who's providing 
the money, and where it's going.
    Mr. Posey. Yeah, there's just such a historical problem 
with corruption in those processes every time we get involved. 
And I assume my time has expired. Thank you, Mr. Chairman.
    Chairman Smith. Okay. Thank you, Mr. Posey. The gentleman 
from California, Mr. Swalwell, is recognized.
    Mr. Swalwell. Thank you, Chair, and I'm glad Mr. Posey 
brought up World War II, because when I think of the challenges 
of the 20th century, and what we're facing now in the 21st 
century, it was America's role in World War II that really 
changed the dynamic of that cause, and I think the world is a 
better place because America acted. And Dr. Steer, I'm 
wondering, what does climate change look like if America does 
not act? Like, if we were, you know, in this next, I think, 
greatest challenge to the world since, you know, World War II, 
probably separate from, you know, extreme terrorism is climate 
change. And what happens if the United States does not act?
    Dr. Steer. The United States is the indispensable leader, 
in terms of the technologies that are required, the pro-market 
approaches, the pro-business, pro-growth, approaches. That is 
the only way we can address it. This is something that the 
United States is uniquely qualified to lead in. We would not 
have the Paris deal, had the United States not been a leader 
there, and so we look forward to continued leadership.
    Mr. Swalwell. And, Dr. Steer, are you familiar with the 
U.S. military, and its belief on whether or not climate change 
is happening, and whether or not it should adjust in its 
modeling for the future?
    Dr. Steer. Yes. Look, the United States military is a 
leader in understanding climate change. It, more than most 
other institutions, has said we have to act, because climate 
change is affecting us in several ways. It's making the world 
much less secure. It's also raising our costs, quite frankly. 
The U.S. Navy, as you know, is exploring just how much it is 
going to cost to raise the moorings for its ships, given 
they're projecting over a meter rise in sea level this century.
    So the U.S. military, and actually NATO--I met last week 
with the head of NATO, Prime Minister--ex-Prime Minister 
Stoltenberg in Davos, and NATO is concerned, deeply concerned, 
about climate change.
    Mr. Swalwell. Great. Thank you, Chair, and I yield back.
    Chairman Smith. Thank you, Mr. Swalwell. The gentleman from 
Oklahoma, Mr. Lucas, is recognized for his questions.
    Mr. Lucas. Thank you, Mr. Chairman, and I would like to 
introduce into the record a letter led by my friend from 
Oklahoma, Congressman Mark Wayne Mullin, and Congressman Tim 
Murphy, signed by myself and 26 other colleagues.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Lucas. Thank you, Mr. Chairman. The letter was sent to 
the EPA, seeking clarification on potential EPA plans to embed 
U.S. federal employees in foreign countries to help monitor 
their progress towards the Paris climate promise's goals. The 
EPA has yet to respond to the letter, but I'm hopeful they will 
take the letter seriously, and address our concerns soon.
    With that, Mr. Groves, are you concerned that the EPA is 
going beyond their legal authority by sending employees 
overseas?
    Mr. Groves. Well, that article and that letter is the first 
that I've heard of this, Mr. Lucas. But I think what it does 
show is kind of the mischief that can--our federal agencies can 
get themselves into once you have something like the Framework 
Convention on Climate Change, and the Paris agreement being 
signed, is you have something that they can point to that 
authorizes them to engage in this type of international 
cooperation. I mean, I would be interested in seeing where the 
funding is coming from to pay U.S. employees taxpayer dollars 
to go help other countries with their climate change issues.
    But from a legal standpoint, you know, when the President 
signs things, and treats them as executive agreements, like 
he's treating the Paris agreement, then it gives agencies like 
the State Department and the EPA clearance to go out and do 
this, or at least some type of justification they can point 
back to. But I think it's something that's worthy of further 
examination.
    Mr. Lucas. Absolutely. Mr. Eule, on principle, 
wholeheartedly disagree with the concept of devoting U.S. 
taxpayers' money to enforce an international agreement that the 
Senate's not yet even ratified. With that being said, I 
understand it's the EPA's intent to move forward and help China 
get a handle on its greenhouse gas emissions. Do we really have 
a clue how much greenhouse gas China is emitting?
    Mr. Eule. No, Congressman, we don't. There was an 
interesting report in the New York Times a few months ago which 
said that Chinese had been underestimating their coal 
consumption by 17 percent. Just to give you an idea of how big 
that is, in emissions terms, that's equivalent to the 
greenhouse gas emissions--not just CO<INF>2</INF> emissions, 
but the greenhouse gas emissions of Germany, so this is not a 
trivial error. And one of the aspects of the Chinese pledge is 
to set up a trading system, emissions trading system. And, you 
know, the question I have is how can you set up an emission 
trading system when you really don't know how--what your 
emissions are? So, yeah, that's a big problem. And it's not 
just with China, by the way. I think this is a problem a lot of 
developing countries have. They really don't have a handle on 
how much they're emitting.
    Mr. Lucas. So it's hard to enforce an agreement that you 
don't have any details for at home, you don't have any facts to 
work from of substance?
    Mr. Eule. Well, I mean, one of the things in the Paris 
agreement is to set up a system where they're supposed to be 
able to do that, but we'll just have to see how that works out.
    Mr. Lucas. Absolutely. Well, it'll be fascinating to see 
how the EPA responds on this concept of sending U.S. employees 
out to enforce agreements that the Senate hasn't yet approved. 
With that, Mr. Chairman, I wait with intensity on our friends 
at the EPA to respond, and I yield back.
    Chairman Smith. Thank you, Mr. Lucas. And the gentleman 
from Texas, Mr. Veasey, is recognized.
    Mr. Veasey. Thank you, Mr. Chairman. Dr. Steer, I wanted to 
ask you about the transfer of wealth from developed to 
developing nations that was a part of this agreement. Can you 
comment on that a little bit, and why it's important to include 
a financial mechanism in the agreement, and what are the 
consequences for the U.S. not committing resources to 
developing nations?
    Dr. Steer. Thank you, Congressman. Yes, the 100 billion 
that is often referred to is not all public money. It includes 
private money. It includes the money that comes from the 
private sector that can actually be stimulated by the public 
money. And only a very small portion of that will go through 
the Green Climate Fund, by the way. Most of it will go through 
many other channels, as Mr. Eule says.
    Look, countries in Africa are severely affected by climate 
change. I think the science is pretty clear on that. Yields 
will, other things being equal, decline, and it's--quite 
frankly, it's not pleasant, if you are a very poor farmer, and 
your yields decline further. They need help on new seeds. We 
know how to do that. So too, of the 1 billion people that would 
be affected by a rising sea level of a meter, most of those are 
poor. Most of them are living in very low lying areas. They 
need help, quite frankly. And so, to us, it's pretty obvious 
that poor people require help. It needs to be provided, in link 
with private investment, and it needs to be provided in a way 
that promotes jobs and growth.
    So, I mean, quite frankly, under the agreement in Paris, 
the obligation for the United States, or any other country, to 
give any specific amount of money does not exist. That is not a 
legal obligation. What is required is that we are transparent 
about the extent to which we are willing to help low income 
countries.
    Mr. Veasey. You know, you kind of--in that same lane, when 
it comes to opportunities for American businesses being able to 
export technologies to the developing world, what kind of 
opportunities do you see there?
    Dr. Steer. Look, I think that I would--I'm pretty confident 
that for every dollar of public money that the United States 
puts in to help developing countries on their mitigation, on 
their adaptation, because it will be leveraged with private 
investment, I'm pretty confident that more than a dollar will 
come back to the United States in terms of additional trade and 
investment.
    Mr. Veasey. Well, yeah, that's remarkable. Thank you, Dr. 
Steer, I appreciate it. Mr. Chairman, I yield back my time.
    Chairman Smith. And thank you, Mr. Veasey. And the 
gentleman from Illinois, Mr. LaHood, is recognized for his 
questions.
    Mr. LaHood. Thank you, Mr. Chairman, and I want to thank 
the witnesses for being here today, and your testimony. Mr. 
Groves, I wanted to ask a couple questions on the legal issues 
and Constitutional issues. Obviously, I was not in Paris. It 
sounds like you were, and many of the panelists were. In terms 
of the discussion that went on on why this was not a treaty, 
and an agreement, or a promise, you know, it seems like so much 
of our foreign policy is premised on the rule of law, our 
democracy, Constitutional democracy, how we do things in our 
country. And so when the question is asked by other countries 
or other entities, why is this not a treaty, and that's posed 
to this administration, what's the response, and what are the 
consequences of that?
    Mr. Groves. Well, the response--and it's not like our 
delegation was shy about this in Paris. The response was, you 
know, we cannot get this through the Senate, and so that's why 
we're not going to treat it as a treaty. This didn't come out 
of the blue when White House Spokesman Jose Earnests was asked 
about this in March of last year, about whether the Senate 
would be able to review the Paris agreement. He said, well, I 
don't really think that the Senate, who's full of climate 
deniers, should have a say on making climate change policy. And 
when the host of the Paris conference, Laurent Fabias of 
France, the Foreign Minister, was asked about this, he said, 
well, no matter what we do, we can't have an agreement that 
would have to go to the U.S. Congress, because it's not going 
to pass. So it was the biggest open secret in Paris, that 
whatever they agreed to, it was--it would have to be something 
that the U.S. would have to come back to the United States and 
not have to pass Congressional muster with.
    So, although the rest of the world will require and expect 
the United States to live up to its mitigation reduction 
commitments, and live up to its financial commitments to send 
billions of dollars every year, the fact that it didn't have 
any type of Congressional scrutiny I think really speaks to the 
legitimacy of the agreement.
    Mr. LaHood. And in terms of the commitments and promises 
made in this non-binding agreement, tell me how that affects 
our domestic law, and how is that binding on corporations here, 
and whether there's compliance or non-compliance, and is there 
precedent for that?
    Mr. Groves. Well, it's a clever thing that the White House 
did, is you go and you make an international commitment in 
Paris, you bypass Congress completely, and then you go to 
enforce it domestically through EPA regulations. So there's a 
lack of democratic legitimacy on almost every level of the 
creation of this document and its enforcement. And these EPA 
regulations, like the Clean Power Plan, will be litigated. You 
know, Congress has passed resolutions disapproving of them. 
But, of course, those EPA regulations will be binding on U.S. 
corporations.
    Mr. LaHood. Yeah. And, Mr. Eule, I would just--following up 
on that, it seems incongruent to me that we continually, around 
the world, talk about democracy, and Constitution, and the 
system of government we have here, but we are doing this the 
opposite way here, and, you know, and not going through the 
treaty process, which, of course, is cloaked with the 
legalities that are binding. Can you comment on that?
    Mr. Eule. Yeah. I think, you know, if you want a durable 
climate change agreement, and durable climate change policy, 
you have to involve Congress. It's as simple as that. And this 
administration has chosen not to do that. And so the question 
is, is this a durable treaty, politically and legally? And I 
would venture to say that the answer is no.
    Mr. LaHood. Thank you. Those are all my questions, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. LaHood. And the gentlewoman 
from Oregon, Ms. Bonamici, is recognized for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for appearing before the Committee. 
I represent Northwest Oregon, and climate change is a very 
important issue for my constituents. I go out to the Oregon 
Coast, that's the western boundary of my district. People there 
rely on a healthy ocean. You may have heard of our famous Pinot 
Noir wine from Yamhill County, Oregon. They need a particular 
climate for those grapes to grow well. We have entrepreneurs 
who are developing new clean energy technologies.
    So there are many Oregonians who are working to address and 
mitigate climate change. In fact, this weekend I'm looking 
forward to meeting with the Willamette Valley Wineries 
Association, and they want to talk about climate change. And 
they're calling it climate migration. We're getting people 
coming up from California, it's too dry, it's too hot. I don't 
want to lose our industry to our wonderful state to the north, 
or to Canada.
    So I wanted to also talk about shellfish growers on the 
Oregon coast. And they've spoken with me about significant 
losses because of ocean acidification. Oyster production is a 
multi-million dollar industry on the West Coast. It supports 
thousands of jobs, and ocean acidification is threatening that 
industry, but also--not just in Oregon, Gulf of Mexico, New 
England, the Mid-Atlantic. And this issue doesn't just matter 
to coastal representatives. All of us have restaurants, and 
grocery stores, and people who eat shellfish in our districts 
around the country.
    So, Dr. Steer, I wanted to ask you a little bit about how 
climate change affects oceans, and as a result, our fisheries, 
what happens to the fish population, migration, and food chain 
dynamics. And if you could also comment about the recent El 
Nino, and how it's affecting the West Coast fisheries. And then 
I do want to save time for another quick question, please.
    Dr. Steer. Well, look, I think the understanding of science 
is firming up year by year. The impact on fisheries is 
potentially very great indeed. We know a lot about where fish 
come from. We know how their habitat can be spoiled by 
acidification, and by rising temperatures, and so there's now a 
very large literature on this. So I think your constituents are 
right to demand action for that.
    Over the last year, as you know, there was a very major 
piece of work called Risky Business that looked at the impact 
of climate change at the county level throughout the entire 
United States. It was sponsored by Hank Paulson, and by Michael 
Bloomberg, and by Tom Steyer, so you had the entire political 
spectrum that were there, and it was quite devastating, quite 
frankly. And so we need to look at these facts.
    Now, obviously, the science is not absolutely firm, and so 
it's very legitimate there'll be some scientists on different 
sides, but you've got to look at the bulk of where the 
scientific opinion is, and it's crystal clear.
    Ms. Bonamici. Thank you. And, Dr. Steer, I'd--I know you 
were in Paris. Welcome back to the Committee. I know there's 
been some discussion already this morning about U.S. 
leadership, but I wanted to really follow up and have you 
expand on that. The United States has a long history of leading 
on global issues that have ramifications beyond our own 
borders, whether it be human rights, world health, technology, 
innovation. We ought to be applauding the administration for 
being ready to lead the international response to climate 
change. And we have, in a relatively short period of time, seen 
developing countries step up and make commitments to reduce 
their greenhouse gas emission.
    So I wanted you to comment on the perception in Paris about 
the role of U.S. leadership, but also, would you please address 
this lack of--some people are saying the lack of a binding 
mitigation commitment in the agreement as a negative, and 
there's this naming and shaming concept. Could you comment on 
that, and can meaningful carbon reductions be achieved without 
legally binding mitigation commitments? How can we effectively 
enforce that?
    Dr. Steer. Look, in Paris there was--Congresswoman, there 
was a remarkable gratitude for United States leadership, and I 
would, you know, I think we should be proud of that, actually, 
and this Committee should be proud of that. We wouldn't have 
the deal without United States leadership. But it's a mistake 
to say that only the United States didn't want, you know, the 
country deals to be--or the country promises to be legally 
binding. Many, many other countries, including some of the most 
important in the world, said count us out if, you know, if we 
are going to have legally binding--so this was something that 
was negotiated.
    In our view, and remember, you know, we don't have a dog in 
this race. We are a research institution. Having looked at this 
very carefully, with our legal scholars, our scientists, our 
economists, our view is actually the balance between legally 
binding and non-binding. Given where we are as a civilization 
today, and a global polity today, we believe this is a smart 
decision, and we believe there's a potential dynamic that's 
going to go on, whereby, as costs fall, as we learn more, as 
private sector leaders, you know, and I loved what you said 
about the United States leadership. Great thing about the 
United States leadership is it's not just government.
    Ms. Bonamici. Right.
    Dr. Steer. It actually--it's, you know, it's Apple, it's 
Walmart. It's a whole range of issues. Amazon, Kohl's Verizon, 
they've all made huge commitments. These are powerful 
institutions that are part of the partnership of change.
    Ms. Bonamici. Terrific. Thank you. My time has expired. I 
yield back. Thank you, Mr. Chairman.
    Chairman Smith. Okay. Thank you, Ms. Bonamici. And the 
gentleman from Texas, Mr. Babin, is recognized.
    Mr. Babin. Thank you, Mr. Chairman, and I want to thank the 
witnesses for being here. Quite frankly, I'm very concerned 
that there is going to be a very harmful and detrimental impact 
on the United States of America, including, and especially, my 
district in Texas, the 36th Congressional District.
    Mr. Eule, the regulations associated with climate change 
will increase the costs of energy for American citizens, 
especially hardworking families already struggling to get by. I 
would like to ask you if you could describe how the increased 
energy costs will impact the macroeconomic health of the United 
States, both for primary energy users, and also end use 
consumers?
    Mr. Eule. Well, thank you. NERA Consulting took a look at 
the Clean Power Plan, and it concluded that electricity rates 
would rise between 10 and 14 percent, and so that's obviously 
going to have a big impact on the poor, minorities, the 
elderly, and people on fixed incomes. They also estimated that 
this would result in 64 to $79 billion in losses to consumers. 
And, you know, when you think about the energy price advantage 
we have over other countries, we have to, you know, ask 
ourselves, is this really the road we want to go down? So I 
think it could have a very devastating impact on consumers and 
on businesses.
    Mr. Babin. Okay. And then, to follow that up, would U.S. 
jobs be lost if these electricity and natural gas prices 
increased for energy intensive trade exposed manufacturers here 
in the United States?
    Mr. Eule. Yeah, almost certainly they will be.
    Mr. Babin. Yeah.
    Mr. Eule. Again, we have a tremendous energy advantage 
here, and we have to thank the oil and gas industry, and the 
fracking revolution that's going on in this country.
    Mr. Babin. Right.
    Mr. Eule. And we have a completely different energy 
situation than they have in many parts of the world, and we 
need to protect that.
    Mr. Babin. Okay. Well, if our colleagues on the other side 
of the aisle were being told that these new green jobs are 
going to increase the incomes of a lot of extra people, would 
these green jobs be enough to offset the manufacturing jobs 
we're talking about losing from the recent U.S. promise at the 
Paris negotiations?
    Mr. Eule. It's very difficult to say, but I will say this. 
When you look at the last seven or so years, since the 
recession, the one shining star in the U.S. economy has been 
the oil and gas sector----
    Mr. Babin. Right.
    Mr. Eule. --and that's because of fracking. From the end of 
2007 to today, employment in that sector has increased by about 
38, 39, 40 percent, while for the rest of the economy it stayed 
pretty much flat. We're pretty much back where we were back in 
2007. So the one shining spot here has been the oil and gas 
sector, and that's because of innovation, and that's because of 
the entrepreneurship of U.S. companies, many of which are small 
and mid-sized companies. So the shale revolution in the United 
States has been a great boon to our economy.
    Mr. Babin. Okay. To even go further with what you just 
said, if you could elaborate on what the abundance of 
affordable natural gas, via this hydraulic fracking, means in 
terms of contributing to a cleaner environment, what can the 
fracking boom, and the new technology, what does that mean for 
a cleaner environment and increased standards of living, both 
here in the United States, and around the globe? There will be 
a positive impact in that regard as well, is that right?
    Mr. Eule. Absolutely. And this is one thing, I think, that 
doesn't get enough attention in the international negotiations. 
And, to be perfectly honest with you, these people--these 
negotiators, they live in a bubble. I remember talking with a 
negotiator a couple years ago, and I mentioned the fracking 
revolution, and I said, this is going to create headwinds for 
any sort of agreement. And he looked at me, and he said, is 
this fracking thing for real? Yes, the fracking thing is for 
real. When people were talking about, a few years ago, peak 
oil, we're not talking about peak oil anymore. We have more oil 
than we know what to do with. We have more natural gas than we 
know what to do with. There are shale formations throughout the 
entire world. This is going to be a tremendous boom for 
economies not just in the United States, but for those 
economies that can develop their shale resources.
    And so, when I look at this, and then I look at the Paris 
agreement, and I look at where people are actually putting 
their money--I mean, people talk green, but they're putting 
their green into shale, they're putting the green into oil, 
they're putting their green into natural gas, and they're 
putting their green into coal, because it's cheap, affordable, 
and scalable. So I think the shale revolution potentially is 
going to have a huge impact globally. Maybe not in the next 
five years, but certainly beyond that.
    Mr. Babin. I know it's had a huge impact on my state, the 
State of Texas.
    Mr. Eule. And a very positive impact, not only for Texas, 
but for North Dakota, and Pennsylvania, and Ohio, and Colorado, 
and many other places.
    Mr. Babin. Right. Thank you so very much. And my time's 
expired, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin. And the gentlewoman 
from Connecticut, Ms. Esty, is recognized.
    Ms. Esty. Thank you, Mr. Chairman, and Ranking Member 
Johnson, for holding today's hearing to examine policy issues 
surrounding the United States' pledge at the recent U.N. 
conference to curtail greenhouse gas emissions. I come from the 
great State of Connecticut, where we have found, and shown, 
that good environmental protection leads to economic growth, 
not the contrary. And I--when I look at a world where the human 
species needs two things, clean water and clean air, to 
survive, we need clean energy to be affordable and available to 
the entire world. So I'd like to follow up on some of the 
issues raised by my colleagues, because I think in Connecticut, 
where we're part of the regional greenhouse gas initiative, 
where our state and our governor have been leaders on financing 
clean energy projects, as well as conservation projects that 
are bringing down the cost of energy, and spurring innovation 
that is leading to job creation in our state.
    The--three quick topics for you, Dr. Steer. Can you talk 
about the following? First, can you talk about the value of a 
bottom up approach? I know you were part of that in Paris, 
about--the reason we got U.S. mayors, states, Canadian 
provinces, and most importantly major U.S. corporations, who 
are investing in these efforts because they see the dollar 
imperative to do so for world markets.
    Number two, can you talk about the health impacts of not 
addressing climate change? One of the reasons we moved early 
and vigorously in Connecticut, because the same rules that 
address climate change are helping bring down asthma rates in 
our cities from dirty air that's blown over from other parts of 
the country. It doesn't just stay there, as many of our 
colleagues on the panel have pointed out. It moves, but also 
that pollution moves with it, and has major health impacts on 
others, who many not get to vote on those rules.
    And last, the role of technology, the upside of U.S. 
technology to address these issues, and license them to the 
world. These same engineers who developed fracking technology 
can also be developing, and I would argue, better off 
developing, clean, renewable energy technologies that can be 
licensed to the world, where they need them desperately. So if 
you could address those, I'd be very grateful. Thank you.
    Dr. Steer. Thank you very much, Congresswoman Esty. First, 
I commend Connecticut for certainly doing exactly what you say. 
Until recently, your Commissioner of Environment was one of the 
best known environmental economists in the world, Dan Esty, and 
it's--it--what you managed to do is not only do the right 
thing, but you actually analyzed it, and you've actually shown 
that it works, which is a really remarkable thing.
    And, by the way, it illustrates the point--I mean, coming 
back to fracking for a moment, fracking is a great blessing. If 
it's gas fracking, it can promote jobs, and so on. By no mean 
is that killed by the Paris deal whatsoever. On the contrary, 
one of the most important things we can do to address climate 
change is actually reduce methane leakage from fracking, and 
that actually would save money. It will help the frackers. In 
the moment, like in energy efficiency more generally, we're 
allowing stuff that we could be making money out of. So I think 
it illustrates the point that you were making, Congresswoman.
    On mayors, I mean, it really is amazing, you think about 
it. Why would 120 American mayors say, sign me up. We, as a 
city, we are going to measure our greenhouse gases, we're going 
to be transparent about our greenhouse gases, we're going to 
have plans for doing something about greenhouse gases, and 
every year we're going to come back, be totally transparent as 
to whether or not we're getting there. They don't have to do 
that. No one is telling them. It's not a law, and so too the 
450 around the world. The reason they do it is because mayors 
are realizing their citizens want action, and they also see it 
as a way of doing things that they know they should've done all 
the time.
    And, actually, this is giving them a little political boost 
to do things like smarter public transportation, like bike 
paths, things like that, which, actually, citizens want. I 
mean, my--we have 350 staff 200 yards from here in our office. 
Half of them don't own cars, they don't want to be. It's a new 
era. They want bike paths. And so that would be one example.
    On the health impacts, Congresswoman, you know, we tend to 
think, well, China, obviously, you know, people are dying, and 
we know that 7 million people are dying every year from air 
pollution, but clearly in this country, you know, we breathe 
clean air. Turns out that analysis shows that actually the 
Clean Power Plan action will pay for itself just in health 
gains alone. That's a really remarkable thing.
    And on technology licensing, I mean, this is so crucial. I 
mean, why is it the high tech companies are so keen that we 
take strong action? I mean, why are they lobbying? Why are they 
committed to, you know, 100 percent renewable? Why--and the 
reason is they see this as an amazing growth opportunity for 
the United States.
    Ms. Esty. Thank you very much. I believe my time has 
expired. Thank you.
    Chairman Smith. Thank you, Ms. Esty. Before we adjourn, a 
couple of items. First of all, without objection, I'd like to 
put in the record a letter signed by 300 independent scientists 
that expressed concern over NOAA's efforts to alter historical 
temperature data.
    [The information appears in Appendix II]
    Chairman Smith. Also, Dr. Steer, a colleague of ours, 
Senator Bill Cassidy , has asked me to pass along a question to 
you relevant to today's hearing. And could I give you that 
question momentarily, and ask you to respond in writing to me 
sometime in the next week or so? Would that be all right? Okay, 
thank you.
    I just want to thank our witnesses. This has been an 
excellent hearing. We've learned a lot, and I appreciate all 
the expertise represented at our witness table today. We stand 
adjourned.
    [Whereupon, at 11:50 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




       Statement submitted by Representative Donald S. Beyer, Jr.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             Documents submitted by Chairman Lamar S. Smith



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                  Article submitted by Ranking Member
                         Eddie Bernice Johnson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           Letter submitted by Representative Frank D. Lucas


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
